                                                              O FFICE OF A UDIT S ERVICES , R EGION IV
                                                               61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                                A TLANTA , GA 30303
April 13, 2012


TO:              Thomas R. Frieden, M.D., M.P.H.
                 Director
                 Centers for Disease Control and Prevention


FROM:            /Lori S. Pilcher/
                 Regional Inspector General
                   for Audit Services


SUBJECT:         Centers for Disease Control and Prevention Did Not Meet Program Expansion
                 Supplement Requirements for Awarding One Affordable Care Act Grant
                 (A-04-11-01003)


The attached final report provides the results of our review of the Centers for Disease Control
and Prevention’s (CDC) awarding of Affordable Care Act grants.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(404) 562-7750, or your staff may contact Mary Moreno, Audit Manager, at (404) 562-7770 or
through email at Mary.Moreno@oig.hhs.gov. We look forward to receiving your final
management decision within 6 months. Please refer to report number A-04-11-01003 in all
correspondence.


Attachment
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




CENTERS FOR DISEASE CONTROL AND
    PREVENTION DID NOT MEET
 PROGRAM EXPANSION SUPPLEMENT
REQUIREMENTS FOR AWARDING ONE
   AFFORDABLE CARE ACT GRANT




                        Daniel R. Levinson
                         Inspector General

                            April 2012
                          A-04-11-01003
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Patient Protection and Affordable Care Act (ACA), P.L. No. 111-148, was signed into law
by President Obama on March 23, 2010. The ACA legislation sought to reform private and
public health insurance, provide better coverage for pre-existing conditions, improve prescription
drug coverage in Medicare, and extend the life of the trust fund. The ACA funded, among other
things, the Prevention and Public Health Fund (the Fund) for expanded and sustained national
investment in prevention and public health programs to improve health and help restrain the rate
of growth in private and public sector health costs. The Fund provided for grants to support state
and community efforts to fight obesity, to increase HIV testing, to promote tobacco quit lines, to
expand mental health and substance abuse programs and to track, monitor, and respond to
disease outbreaks.

Under the ACA, the Centers for Disease Control and Prevention (CDC) was charged with
awarding competitive grants to local governmental agencies and community-based organizations
for the implementation, evaluation, and dissemination of evidence-based community preventive
health activities to reduce chronic disease rates, prevent the development of secondary
conditions, address health disparities and develop a stronger evidence base for effective
prevention programming. In fiscal year 2010, CDC received $191.8 million that it allocated
among 12 different programs. Between October 2009 and September 2011, CDC obligated
$191.3 million and disbursed $70.2 million of these funds.

OBJECTIVE

Our objective was to determine whether CDC awarded select ACA grants in accordance with
terms and conditions of funding opportunity announcements and with grant administration
requirements.

SUMMARY OF FINDINGS

From our sample of 31 ACA grants, CDC awarded 30 grants in accordance with the terms and
conditions of the funding opportunity announcements and with applicable grant administration
requirements for awarding grants. However, CDC awarded one grant that was not in accordance
with certain applicable administrative requirements. Specifically, CDC awarded a project
expansion supplemental award without:

   •   providing a single-source justification for the award,

   •   issuing a notification to the Federal Register of its intent to issue a single-source award,
       and

   •   updating the Catalog of Federal Domestic Assistance information associated with the
       award to reflect ACA funding authority.



                                                  i
CDC did not meet these administrative requirements because communication was inadequate
among the offices responsible for grant administration.

As a result, CDC could not ensure that its use of ACA-related funding for one grant, totaling
$499,582, was most advantageous to the goals of the ACA program.

RECOMMENDATION

We recommend that CDC ensure coordination of grant administration activities by strengthening
communication between responsible offices.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In written comments on our draft report, CDC noted that our finding was an isolated incident but
concurred in principal with our recommendation. CDC stated it had initiated monthly meetings
between responsible offices to avoid miscommunication in the future.

CDC’s comments are included in their entirety as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Centers for Disease Control and Prevention and the Affordable Care Act ...1
              Grant Administration Functions at Centers for Disease Control
               and Prevention ............................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          GRANT ADMINISTRATION REQUIREMENTS ..................................................4

          PROGRAM EXPANSION SUPPLEMENT REQUIREMENTS NOT MET ...........5

          INADEQUATE COMMUNICATION BETWEEN OFFICES ................................5

          AFFORDABLE CARE ACT FUNDS POTENTIALLY NOT USED IN MOST
          ADVANTAGEOUS MANNER ................................................................................6

          RECOMMENDATION .............................................................................................6

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS ........6

APPENDIXES

          A: GRANTS SELECTED FOR REVIEW

          B: CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS




                                                                    iii
                                   INTRODUCTION


BACKGROUND

Centers for Disease Control and Prevention and the Affordable Care Act

The Patient Protection and Affordable Care Act (ACA), P.L. No. 111-148 was signed
into law by President Obama on March 23, 2010. The ACA legislation sought to reform
private and public health insurance, provide better coverage for pre-existing conditions,
improve prescription drug coverage in Medicare, and extend the life of the trust fund.
The ACA funded, among other things, the Prevention and Public Health Fund (the Fund)
for expanded and sustained national investment in prevention and public health programs
to improve health and help restrain the rate of growth in private and public sector health
costs. The Fund provided for grants to support state and community efforts to fight
obesity, to increase HIV testing, to promote tobacco quit lines, to expand mental health
and substance abuse programs and to track, monitor, and respond to disease outbreaks.

Under the ACA, the Centers for Disease Control and Prevention (CDC) was charged with
awarding competitive grants to local governmental agencies and community-based
organizations for the implementation, evaluation, and dissemination of evidence-based
community preventive health activities to reduce chronic disease rates, prevent the
development of secondary conditions, address health disparities and develop a stronger
evidence base for effective prevention programming. In fiscal year (FY) 2010, CDC
received $191.8 million in ACA funds. Between October 2009, and September 2011,
CDC obligated $191.3 million and disbursed $70.2 million of these funds.

Grant Administration Functions at Centers for Disease Control and Prevention

CDC has three offices with grant administration responsibilities:

   1) Program offices initiate the grants process by determining the needs of the office
      and establishing grant programs that meet those needs. Program offices are also
      responsible for reviewing the technical aspects of grant applications as part of the
      source selection process.

   2) The finance office is responsible for, among other things, ensuring that funds are
      available prior to awarding a grant.

   3) The grants office is responsible for most all other grant administration activities
      including ensuring potential grantees are informed of grant opportunities and that
      grants are awarded in accordance with applicable Federal regulations.




                                            1
OBJECTIVE, SCOPE, METHODOLOGY

Objective

Our objective was to determine whether CDC awarded select ACA grants in accordance
with terms and conditions of funding opportunity announcements 1 (FOA) and with grant
administration requirements.

Scope

The scope of our audit included a judgmental sample of 31 ACA grants (totaling $56
million) awarded during FY 2010. Our review of internal controls was limited to gaining
an understanding of CDC’s policies and procedures for awarding grant funds.

We performed fieldwork from June 2011 through December 2011 at the CDC
Procurement and Grants Office in Atlanta, Georgia.

Methodology

To accomplish our objective we:

    •   reviewed applicable Federal laws and regulations;

    •   reviewed Health and Human Services (HHS) grants policies and procedures
        manuals;

    •   reviewed a prior audit of CDC’s internal controls for managing American
        Recovery and Reinvestment Act funds;

    •   interviewed CDC personnel to obtain an understanding of the FY 2010 spending
        plan, funds allocated and spent from ACA, and the application review process;

    •   reviewed CDC’s policies and procedures for awarding grants; and

    •   selected a judgmental sample of 31 grants based both on dollar value and
        coverage of various program areas. 2




1
 Federal agencies use funding opportunity announcements to notify the public of its intentions to award
grants. The funding opportunity announcement describes the purpose of an award, eligibility requirements,
estimated award amount(s), application deadline, and method of selection.
2
 We selected the 20 grants with the highest awarded dollar amounts and selected 11 other high-dollar
grants to cover all identified ACA-related programs.

                                                    2
For our 31 judgmentally selected sample grants, we determined whether CDC ensured
that:

   •   adequate funding was available;

   •   FOAs were open for the required length of time;

   •   FOAs contained enough information, including eligibility requirements, for an
       entity to decide whether to apply;

   •   only applications received before the FOA closed were considered;

   •   applicants were eligible for the award based on the entity restrictions in the FOA;

   •   applicants certified they were not delinquent on any Federal debt;

   •   applicants certified they would not use Federal funds for lobbying activities;

   •   applicants were neither excluded parties nor debarred from receiving Federal
       awards;

   •   single source selections were justified, if applicable; and

   •   selected applicants had the highest technical review score, or CDC justified
       another selection.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                       FINDINGS AND RECOMMENDATION

From our sample of 31 ACA grants, CDC awarded 30 grants in accordance with the
terms and conditions of the FOAs and with applicable grant administration requirements.
CDC ensured that applicants met the requirements of the FOAs and that applicants
provided the required certifications. In addition, CDC appropriately conducted primary
and secondary reviews (as applicable) of applicants, ranked and awarded funds to the
highest ranking applicants, and ensured FOAs both remained open for the required
amount of time and contained sufficient information for applicants to apply. However,
CDC did not award one grant in accordance with certain administrative requirements.
Specifically, CDC awarded a program expansion supplement award without:



                                             3
   •   providing a single-source justification for the award,

   •   issuing a notification to the Federal Register of its intent to issue a single-source
       award, and

   •   updating the Catalog of Federal Domestic Assistance (CFDA) information
       associated with the award to reflect ACA funding authority.

CDC did not meet these administrative requirements because communication was
inadequate among the offices responsible for grant administration.

As a result, CDC could not ensure that its use of ACA-related funding for one grant,
totaling $499,582, was most advantageous to the goals of the ACA program.

GRANT ADMINISTRATION REQUIREMENTS

The HHS Awarding Agency Grants Administration Manual (the Manual), section
2.04.104B-4A.4.a.(2), states that “...the awarding office may add funds to ongoing
projects [through] … [i]ssuance of a supplemental award….” Section 2.04.104B-
4A.b.(1) defines a supplemental award as an award of additional funds under an ongoing
project for the expansion of the project’s scope. Section 2.04.104B-4A.b.(3) states,
“Program expansion supplements are subject to the same requirements for competition as
new awards; therefore, a program expansion supplement can be awarded as an exception
to competition only if the notification and other requirements of [the Manual] 2.04.104A
for limited competition or single-source awards, as appropriate, are followed.”

The Manual section 2.04.104A-5, Exceptions to Maximum Competition, describes the
categories under which an agency may make an award with less than maximum
competition. Section 2.04.104A-5A.1.b requires that “... single-source awards must be
supported by a justification approved by the Head of the OPDIV….” The requirements
of the Manual, sections 2.04.104A-5A.1.e (2)(i) and (7), state, “The written justification
must include sufficient information … [including the] basis for the judgment that the
named entity is the only entity from which applications should be sought…. A Federal
Register notice must be published for each single-source award … prior to or
simultaneous with the award.”

In addition to competition requirements, the ACA authorization statute should have been
cited for existing programs that added ACA funding. A letter from the Director, Office
of Grants Policy, Oversight & Evaluation provided that, for existing programs with new
ACA appropriations, the existing CFDA number should be used and that the existing
program authorization include the correct title and section reference of the ACA
authorization statue in the program’s description.




                                              4
PROGRAM EXPANSION SUPPLEMENT REQUIREMENTS NOT MET

CDC awarded a program expansion supplement of $499,582 without adhering to
competition requirements, single-source award requirements, or other administrative
requirements.

In FY 2008, CDC awarded a 5-year competitive cooperative agreement to the American
Cancer Society (ACS) for disseminating information on cancer prevention, early cancer
detection, cancer diagnosis, cancer treatment, and other efforts related to cancer
prevention and control among public, private, and not-for-profit agencies. In FY 2010,
CDC issued the third year of the award as a noncompetitive continuation. The
continuation included funding for a new project related to ACA activities, which
represented an expansion of the original award’s scope of work.

Because CDC included the program expansion supplement in a noncompetitive
continuation award, the expansion was not subjected to procedures that would maximize
competition. CDC also did not document any justification for awarding the expansion on
a single-source basis.

Furthermore, CDC did not meet other administrative requirements associated with the
award of this project expansion supplement. Specifically, CDC did not provide a notice
to the Federal Register of its intent to make a single-source award prior to (or
simultaneously with) the issuance of the award. CDC also did not update the CFDA
information with the required program expansion data (namely, information related to the
ACA).
`
INADEQUATE COMMUNICATION BETWEEN OFFICES

Communication between CDC offices responsible for grant administration activities was
inadequate to ensure that CDC met administrative requirements.

Specifically, CDC’s Procurement and Grants Office (PGO) relied on the program office
to inform it that projects contained program expansion supplements. However, PGO and
the program office did not communicate with each other regarding the American Cancer
Society ACA expansion.

Although CDC included the project in the FY 2010 ACA spending plan, and the funding
certification document for the continuation award included the project as an ACA line
item (identified by a common accounting number), the Office of Surveillance and
Epidemiology Laboratories Services did not inform PGO that the award contained an
ACA-related project. The program officer and PGO both confirmed that this information
had not been relayed to PGO.




                                           5
AFFORDABLE CARE ACT FUNDS POTENTIALLY NOT USED IN MOST
ADVANTAGEOUS MANNER

By awarding a project expansion on a single-source basis without adequate justification,
CDC could not assure that its use of ACA-related funds totaling $499,582 was most
advantageous to the goals of the ACA program.

RECOMMENDATION

We recommend that CDC ensure coordination of grant administration activities by
strengthening communication between responsible offices.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In written comments on our draft report, CDC that noted our finding was an isolated
incident but concurred in principal with our recommendation. CDC stated it had initiated
monthly meetings between responsible offices to avoid miscommunication in the future.

CDC’s comments are included in their entirety as Appendix B.




                                            6
APPENDIXES
                                                                                      Page 1 of 2


                        APPENDIX A: GRANTS SELECTED FOR REVIEW

Sample
Number                      Program / Grantee                            Amount          Grant Number
         Strengthening Public Health Infrastructure for Improved
         Health Outcomes
     1                       California Department of Public Health      $2,060,128       U58CD001300-01
     2                            Florida State Department of Health     $2,060,128       U58CD001276-01
     3     New York City Department of Health and Mental Hygiene         $2,060,128       U58CD001252-01
     4                     Wisconsin Department of Health Services       $1,960,129       U58CD001316-01
     5              Massachusetts State Department of Public Health      $1,960,128       U58CD001323-01
     6                        Minnesota State Department of Health       $1,960,128       U58CD001287-01
     7     North Carolina Department of Health and Human Services        $1,903,858       U58CD001291-01
     8                           Oregon State Public Health Division     $1,860,128       U58CD001311-01
     9              Los Angeles County Health Services Department        $1,859,950       U58CD001274-01
    10                                               Cherokee Nation     $1,760,128       U58CD001321-01
    11        Maine State Department of Health and Human Services        $1,758,786       U58CD001285-01
    12                    Pacific Islands Health Officers Association    $1,660,128       U58CD001347-01
         ARRA Evaluation
    13                          Arkansas State Department of Health       $610,230              DP2371-01
         Behavioral Risk Factor Surveillance System
    14                          Arkansas State Department of Health       $281,795              DP1957-02
         Communities Putting Prevention to Work
    15                                                City of Chicago    $5,800,000       U58DP002376-01
    16                            Pinellas County Health Department      $4,350,000       U58DP002526-01
    17                               Southern Nevada Health District     $3,800,000       U58DP002382-01
    18                                         County of Santa Clara     $3,600,000       U58DP002500-01
    19     North Carolina Department of Health and Human Services        $3,200,000       U58DP003053-01
    20                   Alabama State Department of Public Health       $2,500,000       U58DP002401-01
    21                       Dekalb County Board of Public Health        $2,350,000       U58DP002539-01
    22                          Arkansas State Department of Health      $1,800,000       U58DP002371-01
         Emerging Infections Program
    23                        Minnesota State Department of Health        $322,544        U01CI000911-01
         Epidemiology and Laboratory Capacity
    24                       California Department of Public Health       $677,043        U50CI000915-01
         Guide for Community Preventive Services
    25           Association of State and Territorial Health Officials    $500,000    U38HM000454-03S1
         Health Care Surveillance
    26                                      American Cancer Society       $499,582        U50DP001863-03
         HIV Lab
    27                       California Department of Public Health       $415,593      U62PS001024-03S1
         HIV Planning
    28     New York City Department of Health and Mental Hygiene         $1,581,184       U65PS003268-01
         HIV Testing
    29                           Virginia State Department of Health      $145,567        U62PS003197-01
                                                                                Page 2 of 2


Sample
Number                       Program / Grantee                     Amount          Grant Number
         Tobacco Quit-line
    30                     California Department of Public Health    $240,173    U58DP002007-02S2
       Improving Epidemiology Practice, Surveillance Systems,
       Disease Reporting, & Epide.
    31            Council of State and Territorial Epidemiologists   $335,000   U38HM000414-03S1
                                                            Total $55,872,458
        APPENDIX B: CENTERS FOR DISEASE CONTROL AND PREVENTION
                                                          Page 1 of 2
                                COMMENTS

                                                                            Public Health Service


                                                                            Centers for Disease Control
                                                                              and Prevention (CDC)
                                                                            Atlanta GA 30333




TO:           Inspector General, HHS

FROM:         Director, CDC

DATE:         March 29,2012

SUBJECT:      Office of Inspector General's Draft Report: "CDC Did Not Meet Program
              Expansion Supplement Requirements for Awarding One Affordable Care Act
              Grant" (A-04- II -02003)

CDC's Procurement and Grants Office (PGO) appreciates the opportunity to review and
comment on the Office of Inspector General's (OIG) draft report, "CDC Did Not Meet Program
Expansion Supplement Requirements for Awarding One Affordable Care Act Grant." Thank you
for your review of this important issue.

As stated in the HHS OIG draft report, of31 Affordable Care Act (ACA) grants, CDC awarded
30 grants in accordance with the terms and conditions of the funding opportunity announcements
and applicable grant administration requirements for awarding grants. However, CDC awarded
one grant that was not in accordance with certain applicable administrative requirements.
Specifically, CDC awarded a project expansion supplemental award without:

• Providing a single-source justification for the award.
• Issuing a notification to the Federal Register of its intent to issue a single-source award.
• Updating the Catalog of Federal Domestic Assistance Information associated with the award to
   reflect ACA funding authority.
• Creating a subaccount to track ACA funds.

OIG Recommendation: We recommend that CDC ensure coordination of grant administration
activities by strengthening communication between responsible offices.

CDC Response: CDC concurs in principle with this recommendation and acknowledges that
inadequate communication occurred among CDC offices and programs. The grant award was not
administered as a program expansion supplement being funded with Prevention and Public
Health Funds. CDC did include the project iu the FY 2010 Affordable Care Act (ACA) spending
plan, and the funding certification document for the continuation award included the project as
an ACA line item. This was an isolated iucident.
                                                                                         Page 2 of 2




CDC's PGO branch managers are proactively taking steps to avoid miscommunication and have
instituted monthly planning meetings with their program office counterparts to ensure these types
of miscommunication do not occur in the future.



                                         ~  Thomas R. Frieden,     .D., M.P.H.
                                            Director, CDC
